Office of Inspector General



July 18, 2010

MEMORANDUM

FOR:            USAID/Egypt Acting Mission Director, Richard Rousseau

FROM:           Regional Inspector General/Cairo, Jacqueline Bell /s/

SUBJECT:        Risk Assessment of the Impact of BearingPoint’s Restructuring on
                USAID/Egypt Programs (Report No. 6-263-10-001-S)



This memorandum transmits our final memorandum on the subject review. In
finalizing the report, we considered your comments on the draft review report and
have included the comments in their entirety in appendix II.

Thank you for the cooperation and courtesy extended to the audit team during
this audit.
Background
             In fiscal year (FY) 2009, BearingPoint, Inc., was one of the 100 largest federal
             contractors, with more than $1.3 billion in active contracts. The company’s
             Government contracts included program management and support projects and
             technical assistance activities for clients ranging from the Navy to the National
             Institutes of Health. USAID was one of the largest purchasers of services from
             BearingPoint in FY 2009, with more than $850 million in active contracts.
             Despite these contracts, BearingPoint filed for relief under Chapter 11 of the U.S.
             Bankruptcy Code1 in February 2009. In May 2009, BearingPoint sold the
             majority of its Public Services Unit, including contracts with USAID, to Deloitte
             Consulting LLP (Deloitte). In August 2009, the Defense Contract Management
             Agency (DCMA)2 issued a novation agreement to recognize Deloitte as
             BearingPoint’s successor in interest to selected contracts.3 In September 2009,
             USAID issued its own novation agreement to retroactively recognize Deloitte as
             BearingPoint’s successor in interest to multiple USAID contracts. Under the
             novation agreement, Deloitte agreed to perform the novated contracts in
             accordance with the terms contained in the contracts and assumed all obligations
             and liabilities associated with the contracts. In turn, USAID and other affected
             agencies agreed to recognize Deloitte as the “successor in interest” to all
             relevant contracts.

             Among the contracts affected by the bankruptcy and subsequent sale of
             BearingPoint was one USAID/Egypt project, the Technical Assistance for Policy
             Reform II (TAPR-II) project. USAID/Egypt awarded the TAPR-II contract to
             BearingPoint in October 2005 as a cost-plus-fixed-fee contract4 valued at
             approximately $130.6 million. The contractor designed the 5-year project to
             provide technical assistance related to economic policy formation and private-
             sector development, along with related training, grants, and commodity support,
             to the Government of Egypt. The project includes seven components: (1) trade
             environment, (2) financial sector modernization, (3) macroeconomic stability,
             (4) enabling policy environment for business, (5) facilitating services for the
             private sector, (6) human resources, and (7) program support. The project was
             in its fourth year at the time of BearingPoint’s restructuring and eventual sale. At

             1
               Codified in Title 11 of the U.S. Code, commonly referred to as the Bankruptcy Code.
             2
               DCMA is a Department of Defense agency that provides contracting support to multiple
             Federal agencies. This support includes development of contract solicitations, drafting of
             contracts, and management of contractor performance.
             3
               A novation is the substitution of a new contract, debt, or obligation for an existing one
             (Black’s Law Dictionary 735, abridged 6th ed., 1991). In this case, the novation had the
             effect of substituting a new party that was not a party to the original duty (Deloitte) and
             discharging an original party (BearingPoint). Federal Acquisition Regulation 42.1204,
             “Applicability of Novation Agreements,” provides guidance on Government recognition of
             a third party as the successor in interest to a government contract.
             4
               A cost-plus-fixed-fee contract is a contract that provides for payment of allowable
             incurred costs, to the extent prescribed in the contract, using an estimate of total cost for
             the purpose of obligating funds and establishing a ceiling that the contractor may not
             exceed without the approval of the contracting officer. In addition, a cost-plus-fixed-fee
             contract provides for payment of a negotiated fee that is fixed at the inception of the
             contract. The fixed fee does not vary with actual cost, but may be adjusted as a result of
             changes in the work to be performed under the contract.


                                                                                                             2
                  the time of the restructuring, USAID/Egypt had expended approximately
                  $93 million for the TAPR-II project. By the time Agency officials signed the
                  USAID novation agreement, USAID/Egypt had expended, in total, approximately
                  $101.4 million for TAPR-II.

                  While many contracts, including TAPR-II, were included in the DCMA and USAID
                  novation agreements, there were contracts between BearingPoint and USAID
                  that were not novated to Deloitte. In January 2010, BearingPoint and USAID
                  came to a settlement related to claims for 391 contracts and subcontracts
                  existing between BearingPoint and the Agency before the February 2009
                  bankruptcy filling that were not novated, including 20 USAID/Egypt contracts.
                  Under the settlement, the parties agreed to close out the remaining contracts to
                  avoid the “expense, effort, and distraction required to complete the outstanding
                  audits of BearingPoint’s incurred costs.”        USAID agreed not to pursue
                  BearingPoint for additional claims related to the specified contracts and, in turn,
                  USAID would not be liable to BearingPoint for any other payments. Following
                  this settlement, USAID’s Office of Acquisition and Assistance (OAA) sent by e-
                  mail to USAID missions information on the settlement and a list of contracts to be
                  closed out. This e-mail identified 20 USAID/Egypt contracts that were active
                  between 1995 and 2004 and valued at $26.8 million, of which approximately
                  $720,000 remained unliquidated.5 OAA’s e-mail reiterated that the settlement
                  required USAID to close out each contract at the amounts billed for direct and
                  indirect costs. OAA instructed USAID/Egypt not to ask BearingPoint to provide
                  any information, documentation, or other materials to assist in the closeout
                  process based on the settlement agreement.

Risk Assessment
and Control           The purpose of this assessment was to identify any significant areas of
Activities in a       vulnerability in USAID/Egypt’s administrative and program operations related to
Control               BearingPoint’s restructuring and eventual sale to Deloitte. This would allow
Environment           the mission to take appropriate steps to address any identified vulnerabilities.

                      According to the Government Accountability Office (GAO) Standards for
                      Internal Control in the Federal Government, internal controls should provide
                      reasonable assurance of compliance with applicable laws and regulations and
                      that operations are effective and efficient and financial reporting is reliable.
                      Internal controls consist of the following five related components.6 These
                      components are the minimum level for internal control and provide the basis on
                      which internal control is to be evaluated.

                  1. 	 Control Environment: Management and employees should establish and
                       maintain a control environment throughout the agency that sets a positive
                       and supportive attitude toward internal control and conscientious
                       management.

                  5
                    This e-mail included expired contracts with both BearingPoint and a BearingPoint
                  subsidiary, the Barents Group. In addition, OAA’s e-mail included three contracts that
                  staff from USAID/Egypt’s Financial Management and Procurement offices determined
                  were not between USAID/Egypt and BearingPoint and should not have been included.
                  6
                    Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1
                  (11/99).


                                                                                                           3
             2. 	 Risk Assessment: Internal control should provide for a risk assessment of
                  the risks the agency faces from both external and internal sources.

             3. 	 Control Activities: Internal control activities should be effective and efficient in
                  accomplishing the agency’s control objectives and help ensure that
                  management’s directives are carried out.

             4. 	 Information and Communications: Information should be recorded and
                  communicated to management and others in the agency who need it and in a
                  form and within a timeframe that enables them to carry out their internal
                  control and other responsibilities.

             5. 	 Monitoring:   Internal control monitoring should assess the quality of
                  performance over time and ensure that the findings of audits and other
                  reviews are promptly resolved.

             This review focused on the second component—risk assessment. The GAO
             standards note that the specific risk analysis methodology used can vary
             because of differences in agencies’ missions and the difficulty in qualitatively and
             quantitatively assigning risk levels. This review assigned a risk exposure of high,
             moderate, or low for each major function. A higher risk exposure simply
             indicates that the particular function is more vulnerable to its program objectives
             not being achieved or to irregularities occurring. Appendix I describes in detail
             the risk assessment scope and methodology.


Discussion
             The Regional Inspector General/Cairo (RIG/Cairo) examined the risk associated
             with the restructuring and subsequent sale of BearingPoint to USAID/Egypt’s
             programs by office. The audit team assigned exposure risk levels ranging from
             low to moderate to five USAID/Egypt mission offices. USAID/Egypt’s Financial
             Management, Policy and Private Sector, and Procurement offices were assessed
             as moderate risk exposure, and the Program and Regional Legal Advisor offices
             were assessed as low risk exposure.

             Mission-wide, several factors mitigated USAID/Egypt’s risk exposure related to
             BearingPoint’s restructuring and eventual sale and the settlement for non-
             novated contracts:

             	 USAID/Washington’s OAA, Office of General Counsel, and the Chief
                Financial Officer made the significant decisions related to the USAID novation
                agreement and settlement for non-novated contracts and provided guidance
                to USAID missions worldwide on required actions during the restructuring and
                sale period.

             	 TAPR-II was the only active USAID/Egypt contract with BearingPoint at the
                time of the restructuring and sale, and, as such, was the only contract
                affected by the novation agreement.




                                                                                                         4
	 Deloitte’s purchase of BearingPoint generally did not change the underlying
   contract activities or senior contractor staff. Deloitte made no changes to the
   staff implementing USAID/Egypt’s TAPR-II project and did not make any
   changes to project processes or activities.

The assessment of the risk exposure for the five USAID/Egypt offices
responsible for activities affected by the BearingPoint restructuring and sale or
the settlement for non-novated contracts follows.

           Office Description                          Risk Exposure
     Financial Management Office                         Moderate
                            Risk Assessment Factors
   The Financial Management Office is responsible for financial management
    of mission programs and operations that include reviewing and processing
    payments and supporting financial activities of USAID/Egypt programs.

   Financial Management Office staff currently responsible for TAPR-II
    financial analysis and accounts payable have varying experience with the
    project. The staff person providing financial analysis to the TAPR-II project
    has worked with the project since its implementation and with USAID/Egypt
    for approximately 19 years, while the accounts payable clerk is new to the
    project but has been with USAID/Egypt for 10 years.

   Both the financial analyst and accounts payable staff reported that their role
    during the BearingPoint transition was relatively limited.

   The financial analyst ensured that the novation was appropriately recorded
    in USAID’s Phoenix accounting system. The accounts payable staff
    responsible for the TAPR-II vouchers at the time of the transition and sale
    observed no problems during that period. While USAID/Egypt’s Policy and
    Private Sector Office reported that Deloitte experienced some difficulties as
    the company merged BearingPoint’s voucher system into its own, the
    Financial Management Office’s level of voucher review was not affected by
    these issues.

   The role of the Financial Management Office is to receive the vouchers
    from the contractor and provide them to the contracting officer’s technical
    representative (COTR) for administrative approval. After the administrative
    approval is given, accounts payable staff members review the vouchers for
    accuracy and consistency.

   Regarding the settlement of non-novated BearingPoint contracts, the
    Financial Management Office staff worked with the TAPR-II contracting
    officer to close out the identified contracts. Based on the office’s review of
    the list of non-novated contracts provided by OAA, the mission identified
    three contracts on the list that were unrelated to BearingPoint.

   To date, USAID/Egypt has not conducted any audits of locally incurred
    costs for the TAPR-II project, either before, during, or since the transition
    from BearingPoint to Deloitte. Financial Management Office staff reported


                                                                                     5
    that no locally incurred cost audit had been done because no problems had
    been identified or raised by mission staff. USAID’s Automated Directives
    System (ADS) 591.3.1.2, “U.S. For-Profit Organizations,” states that
    USAID/Washington’s OAA is responsible for determining when to audit a
    U.S. for-profit organization, such as BearingPoint. However, the mission
    has the right to conduct an incurred-cost audit of its implementing partners,
    should it feel this is appropriate. Given the increased risk associated with
    the BearingPoint sale that this assessment brought to mission
    management’s attention, the Financial Management Office plans to conduct
    an audit of the TAPR-II project’s locally incurred costs within the next 5
    months.

	 Given the significant experience of the office’s staff, their review of
   guidance provided by Washington, and the mission’s plan to conduct a
   locally incurred cost audit of the TAPR-II project, combined with the size of
   the TAPR-II program and the lack of prior TAPR-II audits, a risk level of
   moderate is assigned to the Financial Management Office.


           Office Description                          Risk Exposure
    Policy and Private Sector Office                      Moderate
                            Risk Assessment Factors
   The Policy and Private Sector (PPS) Office has primary responsibility for
    operational oversight of the TAPR-II project. A COTR and three activity
    managers in the office are responsible for managing components of the
    TAPR-II project. Each of the TAPR-II activity managers has worked with
    the TAPR-II project since its implementation in 2005.

   At the time of the BearingPoint restructuring and sale in 2009, two
    USAID/Egypt staff shared duties as COTR for the TAPR-II project. One of
    these staff members is a Foreign Service National with 21 years of
    experience at USAID/Egypt who has worked on the project since
    implementation. The second COTR, responsible for project activities, is a
    U.S. direct hire staff member currently serving as the acting office director.

   The COTRs and activity managers dedicate approximately 90 percent of
    their time to the TAPR-II project.

   PPS staff used multiple mechanisms, including annual and semiannual
    reports, site visits, and project evaluations, to monitor contract performance
    before, during, and following the BearingPoint restructuring and sale. The
    staff also has access to a contractor-maintained electronic data system,
    which collects contractor data, reports, and contract deliverables.

   In addition to using information maintained in the electronic data system to
    monitor contractor performance, the staff communicated either weekly or
    biweekly with BearingPoint officials, including the local TAPR-II staff and
    senior staff at BearingPoint’s Virginia headquarters, during the period of the
    restructuring and sale. In early February 2009, after BearingPoint officially
    announced its restructuring, USAID/Egypt and TAPR-II staff met with



                                                                                     6
    BearingPoint officials. Moreover, BearingPoint officials continued to
    provide USAID/Egypt with information on the company’s restructuring
    throughout the process.

	 Prior USAID/Egypt reviews of the TAPR-II project, including a midterm
   evaluation, and PPS staff observations indicated that the TAPR-II project
   was achieving planned results and had no significant problems.

	 At the time of the restructuring and sale, PPS staff did not change the
   mechanisms used to monitor the program and did not increase the level of
   monitoring. Although USAID/Egypt’s staff had limited familiarity with
   Deloitte, minimal changes to the TAPR-II staff, program, or activities
   occurred after the BearingPoint restructuring and sale, limiting the need for
   increased monitoring.

	 Between October and December 2009, Deloitte experienced difficulties in
   providing appropriate vouchers as it merged BearingPoint’s system into its
   own voucher system. However, PPS staff reported that this issue had been
   resolved.

	 PPS communicated regularly with other USAID/Egypt offices, such as the
   Procurement and Program Offices, throughout the BearingPoint
   restructuring and sale. However, PPS staff had relatively little contact with
   USAID/Washington related to the BearingPoint restructuring, sale, and
   eventual novation agreement, since the mission’s Office of Procurement
   was its primary contact on novation actions.

	 Given the significant experience of the PPS staff, the existing monitoring
   systems, and limited changes resulting from the BearingPoint restructuring
   and sale, combined with the size of the TAPR-II program and the level of
   PSS Office responsibility for the program, a risk level of moderate is
   assigned to the PPS Office.


           Office Description                        Risk Exposure
          Office of Procurement                        Moderate
                            Risk Assessment Factors
   A contracting officer in USAID/Egypt’s Office of Procurement provides
    contract negotiation and administrative services for the TAPR-II project.
    The staff person has extensive USAID contracting experience and has
    been with USAID/Egypt for more than 2 years. The Office of Procurement
    worked to ensure that USAID/Egypt followed the guidance provided by
    USAID/Washington’s OAA on both the novation agreement and the
    settlement agreement.

   BearingPoint provided the contracting officer with information immediately
    upon filing for Chapter 11 protection and continued to provide a status
    update throughout the restructuring and sale.

   The contracting officer maintained regular communication with the TAPR-II


                                                                                   7
    COTRs in USAID/Egypt’s Policy and Private Sector Office throughout the
    BearingPoint restructuring and sale.

	 The contracting officer noted that, in prior monitoring of the program, staff
   did not identify any significant problems related to the TAPR-II project that
   could lead to potential problems during the restructuring and sale.

	 According to the contracting officer, because there were no changes to the
   TAPR-II staff or activities and the transition from BearingPoint to Deloitte
   was “seamless,” there was no need for the Office of Procurement to
   increase the level of project monitoring. However, the contracting officer
   reported that USAID/Egypt staff continued to monitor the TAPR-II project
   throughout the restructuring and sale to ensure that project activities were
   not disrupted.

	 USAID/Washington provided the Office of Procurement with guidance on
   the January 21, 2010, settlement agreement for the non-novated
   BearingPoint contracts. The settlement agreement states that USAID will
   not pursue BearingPoint for additional claims related to contracts that were
   not covered under the novation agreement and, in turn, USAID will not be
   liable to BearingPoint for any other payments for these contracts.

	 Since USAID/Washington was responsible for developing the Agency-wide
   novation agreement and the settlement related to non-novated contracts,
   time demands on the contracting officer related to contracts affected by the
   agreement and settlement were limited. During this period, the contracting
   officer regularly communicated with staff from other USAID/Egypt offices
   and with OAA related to the TAPR-II contract and the non-novated
   contracts.

	 After OAA provided the list of non-novated contracts to the mission, the
   offices of Procurement and Financial Management identified three contracts
   from this list that were not affected by the BearingPoint settlement.

	 Given the significant experience of the contracting officer, guidance
   provided by Washington, and limited changes resulting from the
   BearingPoint restructuring and sale, combined with the size of the TAPR-II
   program and the level of Procurement Office responsibility, a risk level of
   moderate is assigned to the Procurement Office.


             Office Description                       Risk Exposure
              Program Office                               Low
                              Risk Assessment Factors
   USAID/Egypt’s Program Office is responsible for mission-wide activities,
    including the development of the mission’s strategic plans, budgets,
    performance management plans, and performance evaluations. On the
    TAPR-II project, the Program Office assisted other mission offices with
    activities such as portfolio reviews, performance evaluations, and data
    quality assessments.


                                                                                   8
	 According to Program Office staff, USAID/Egypt officials were notified about
   the BearingPoint restructuring and sale in both mission-wide and office-
   specific meetings. In addition, Program Office staff members responsible
   for public relations were notified by senior USAID/Egypt staff by e-mail.
   Program Office staff reported being given no specific guidance in terms of
   next steps related to the restructuring and sale, but noted that they would
   have no role in this area because they are not involved in directly managing
   contracts.

	 The Program Office was not involved in the closeout of the non-novated
   BearingPoint contracts.

	 A Foreign Service National staff member with a little more than 1 year of
   experience with the TAPR-II project and more than 8 years experience with
   USAID/Egypt’s Program Office acts as the primary Program Office support
   for TAPR-II. That staff person is supervised by a U.S. direct hire program
   officer assigned to USAID/Egypt for the past 3 years who previously served
   as the Program Office’s primary support for TAPR-II.

	 Through portfolio reviews and data monitoring, the Program Office
   determined that, during the period in which BearingPoint was going through
   the restructuring and sale, the TAPR-II project was achieving its planned
   results.

	 The Program Office continued to coordinate portfolio performance and
   implementation reviews that described TAPR-II performance during the
   period of the restructuring and sale. The office conducted the last data
   quality assessment of the TAPR-II project in FY 2007 and found that the
   quality of data was generally in keeping with USAID’s data quality
   standards.

	 Because there was no change in TAPR-II monitoring and evaluation staff or
   in the systems that the contractor used to collect and monitor data, the
   Program Office staff did not conduct additional monitoring, such as
   updating the data quality assessment, during the restructuring and sale. A
   data quality assessment of all USAID/Egypt economic growth programs will
   be conducted in FY 2010 and will include data attributable to TAPR-II.

	 Given the limited role of the Office related to the BearingPoint restructuring
   and sale, the limited changes resulting from that sale and restructuring, and
   the existing monitoring systems, combined with the size of the TAPR-II
   program and the level of Program Office monitoring responsibility, a risk
   level of moderate is assigned to the Program Office.




                                                                                    9
                           Office Description                       Risk Exposure
                 Office of the Regional Legal Advisor                    Low
                                            Risk Assessment Factors
                 The Office of the Regional Legal Advisor provides regional support to
                  multiple missions in the region, including USAID/Egypt. The role of this
                  office was limited regarding the BearingPoint restructuring and sale
                  because most legal decisions related to restructuring, novation, and
                  closeout of non-novated contracts were made in consultation with
                  USAID/Washington’s Office of General Counsel.

                   Office of the Regional Legal Advisor staff provided general information to
                    USAID/Egypt staff on Chapter 11 bankruptcy and what it might mean for
                    BearingPoint.

                   Given the limited role of the mission’s Office of Regional Legal Advisor in
                    activities related to the BearingPoint restructuring and sale, the Office is
                    assigned a risk level of low.



Conclusion
                The table below summarizes the risks associated with the restructuring and
                subsequent sale of BearingPoint to USAID/Egypt’s programs by office.

                                                                     Risk Exposure
                USAID/Egypt Offices
                                                        High          Moderate     Low
                Financial Management Office                                
                Policy and Private Sector Office                           
                Office of Procurement                                      
                Program Office                                                             
                Office of the Regional Legal Advisor                                       

                The risks associated with the restructuring and sale of BearingPoint and their
                impact on USAID/Egypt’s programs were mitigated by several factors. First,
                USAID/Washington made significant decisions related to the novation
                agreement, which included USAID/Egypt’s TAPR-II project. Second, the TAPR-II
                project experienced no changes in personnel or activities as a result of the
                restructuring and sale. Finally, based on information provided during this review,
                USAID/Egypt plans to conduct an audit of the TAPR-II project’s locally incurred
                costs, which will further mitigate potential unidentified risks resulting from
                BearingPoint’s restructuring and sale.


Evaluation of
Management      USAID/Egypt mission officials had no comments on this risk assessment. Given
Comments        the increased risk associated with the BearingPoint sale brought to mission
                management’s attention during the assessment, the Financial Management
                Office has taken steps to conduct an audit of the TAPR-II project’s locally
                incurred costs prior to, during, and after the BearingPoint sale.


                                                                                                     10
                                                                                         Appendix I
Scope and	     Scope
Methodology	   The Regional Inspector General/Cairo (RIG/Cairo) conducted this risk
               assessment of selected offices within USAID/Egypt. This risk assessment was
               not an audit. The risk assessment covered operations principally for fiscal year
               (FY) 2009, the fiscal year in which BearingPoint declared bankruptcy and
               subsequently sold the key divisions to Deloitte Consulting. This risk assessment
               was conducted at USAID/Egypt in Cairo from March 30 through May 6, 2010.

               The risk assessments of the selected USAID/Egypt offices have the following
               limitations in their application:

                  	 First, we assessed risk at the office level.

                  	 Second, we assessed risk only. Our risk assessments were not sufficient
                     to make definitive determinations of the effectiveness of internal controls
                     for major functions. Consequently, we did not generally (a) assess the
                     adequacy of internal control design, (b) determine whether controls were
                     properly implemented, or (c) determine whether transactions were
                     properly documented.

                  	 Third, higher risk exposure assessments are not definitive indicators that
                     program objectives are not being achieved or that irregularities are
                     occurring. A higher risk exposure simply indicates that the particular
                     function is more vulnerable to undesirable negative events.

                  	 Fourth, risk exposure assessments, in isolation, are not an indicator of
                     management capability because risk assessments consider both internal
                     and external factors, some of which are beyond management’s control.

                  	 Fifth, comparison of risk exposure assessments between organizational
                     units is of limited usefulness because risk assessments consider both
                     internal and external factors, some of which may be beyond
                     management’s control.

               Methodology

               To perform this risk assessment, we interviewed USAID/Egypt officials and
               reviewed documentation on the role of each responsible office related to the
               BearingPoint restructuring, sale, and contract settlement.        Our review of
               documentation from selected USAID/Egypt offices on their roles related to the
               BearingPoint restructuring and sale was limited and judgmental in nature and
               conducted principally to confirm oral attestations of management.

               We identified the selected offices with roles related to the BearingPoint
               restructuring and sale based on recommendations from senior mission staff and
               based on the functional role of each office. We determined risk exposure for
               each of these offices regarding the restructuring and sale—for example, failure to
               achieve program objectives; failure to ensure program continuity or sufficient
               monitoring of program changes; and the likelihood of significant abuse, illegal
               acts, or misuse of resources. We assessed overall risk as high, moderate, or

                                                                                                      11
low. A higher risk exposure simply indicates that the particular function is more
vulnerable to its program objectives not being achieved or that irregularities were
occurring. We considered the following key factors in assessing risk:

   	 Significance and sensitivity

   	 Competence and adequacy of number of personnel

   	 Susceptibility to failure to attain program goals, noncompliance with laws
      and regulations, inaccurate reporting, or illegal or inappropriate use of
      assets or resources

   	 Relevant internal controls, including control activities such as
      documentation of performance monitoring, communication of information
      both internally and externally, and management of human resource
      capacity

   	 Warning signs such as a history of improper administration or material
      weaknesses identified in prior audits or internal control assessments,
      poorly defined and documented internal control procedures, or a high rate
      of personnel turnover

These risk assessments were not sufficient to make definitive determinations of
the effectiveness of internal controls for major functions. As part of the review
methodology, we identified, understood, and documented (only as necessary)
relevant internal controls and determined what was already known about the
effectiveness of internal controls. However, we did not generally assess the
adequacy of internal control design, determine whether controls were properly
implemented, or determine whether transactions were properly documented. In
some cases, we were able to make these assessments and reported on them as
part of the risk exposure assessments.




                                                                                      12
                                                                                                    Appendix II
Management
Comments




           Memorandum


           Date:                 July 6, 2010

           To:                   Jacqueline Bell, Regional Inspector General/Cairo

           From:                 Herminia Pangan, A/Regional Controller, USAID/Egypt //s//

           Subject:              Risk Assessment of the Impact of BearingPoint’s Restructuring on
                                 USAID/Egypt Programs (Report No. 6-263-10-XXX-S)


           Mission considered the subject report and has no comments to make. Please proceed with
           issuing the report in final.

           As agreed, the Mission has already contacted Grant Thornton/Hilal to assess the internal
           controls over the locally incurred costs by the contractor before and after the novation to
           determine the scope of work.

           Thank you for your cooperation.


           Distribution:
           File




   UNITED STATES AGENCY for INTERNATIONAL DEVELOPMENT / EGYPT
   USAID                                                 IN-COUNTRY MAIL:
   1A Ahmed Kamel Street                                 P.O. Box 32, Maadi                     Tel: (202) 522 7000
   off El-Laselki Street – New Maadi                     Cairo - Egypt                          Fax: (202) 516 4628
   Cairo - Egypt                                         Postal Code: 11435                          (202) 516 4659
